                                     CLOSEOUT FOR M95120044

    On December 6, 1996, a program officer1 informed OIG of allegations of intellectual theft
    and inadequate citation that he had received from the ~ o m ~ l a i n a nThe
                                                                              t . ~ complainant alleged
    that his CO-PI~ and another scientist4had published a paper5 that misappropriated credit for an
    electronic database conceived of, and developed by, the complainant, and had failed to
    provide proper citation for two figures reprinted in the paper from the database. The database
    is located on the world wide web.6 The original site for the database is located at the
    complainant's institution and, at the time of the allegations, the subject supported a mirror site
    in Europe. The complainant said that his work on the database was supported by two NSF
    grants, one was a Small Grant for Exploratory Research (SGER) grant.7 The second flowed
    from the first and was a regular research grant.8 The first grant named the complainant as the
    sole PI and second grant named the complainant and the subject as co-PIS. The complainant
    said that the subject received no financial support from the second grant and was included in
    it to assist his efforts in soliciting funds from European scientific agencies.

    The complainant claimed that he was the originator of the database described in the subject's
    paper. He explained that he submitted the SGER grant in response to several NSF sponsored
    workshops, one of which he had attended. He said he had used funds from this grant to
    develop the database now in dispute and that the second grant supported further work and
    refinements on the database. He said he had attended the European workshop convened by
\   the subject and his co-author at which the database and its uses were discussed. The
    complainant alleged that the subject's paper was not written as a report of that meeting,
    instead, it reported on the database as if it originated with the co-authors, not the complainant.
    It failed to give credit to either the complainant or another scientistg who had worked on
    developing the database. He further alleged that two figures from the electronic database
    were published in the paper without accession numbers or citations to the database.

    The complainant had seen a manuscript of the disputed paper and protested its limited
    acknowledgment of his and the other scientist's role in developing the database. The




    -
                                                        is located in h
                                                                      teak
                                                                         -                                of the Division of

                                           rm
                                            e?b
                                              e--                                 in the Division of-at                 the

                                                       member in the Divisiont-                 the Universi-

       The scientist is Dr.                            -
                                                     from the   w                                                    at the

                       ndu
                         -'w-
                                                                I
                                                                C
                                                                                                                      ' The
    com~lainantwas the sole PI.

    Its co-PISwere the subject and the complainant.
       This fourth scientist is Dr.                          from the ~ n i v e r s i e .


                                                    Page 1 of 3                                      M95-44
                            CLOSEOUT FOR M95120044

complainant said he was assured by the subject that the manuscript would be corrected, but it
was not. The complainant said that the subject's co-author had not participated in the
development of the database and had not seen a final version of the manuscript.

OIG reviewed the subject's paper, the NSF grants, relevant electronic mail messages sent by
the subject and complainant, and an NSF publication10that described the workshops held by
NSF. The SGER grant did not propose to develop the database but it was included as an
outcome of the project in the final report. OIG learned that both the subject and the
complainant participated in the NSF workshops and that the subject had been involved in the
portions of the complainant's SGER award and second award that developed the database.

In the second proposal's discussion of the work completed under the SGER, the complainant
provided a citation to the electronic database that named as authors, in descending order, the
subject's graduate student, the complainant's systems engineer, the complainant, and the
subject. The second proposal had requested financial support for the subject but it was
eliminated when it was funded. Reviewers and the NSF program officer concluded that the
subject should secure funding from European sources for the European mirror site for the
database. One of the letters sent in support of the second grant cited the "pilot work by [the
subject] and [the complainant]" and referred to "the database you and your colleagues are
developing . . . ." Also, OIG learned that the subject and complainant had co-authored an
article" with the subject's graduate student, the complainant's systems engineer and two others
that described the electronic database.

OIG concluded that these materials showed that, while the complainant had a pivotal role in
developing the database, the subject and his graduate student had participated in the
development of the database, and were, by the authorship credit on both the co-authored
article and the database citation, given public credit, along with the complainant and others
for the development of the electronic database. Further, the subject had actively participated
in the preparation of, and soliciting support from colleagues for, the second proposal.

In contrast to the complainant's allegation, the subject's co-authored paper did appear to be a
report of the European workshop. It is, however, less than complete in its explanation of the
origins of the database and the complainant's pivotal role in its development. The electronic
database instructs users to cite the co-authored article when discussing the database. The
subject's paper contains only one citation, it is to the co-authored article. For figures
reproduced from the database, authors are instructed to provide an accession number, date of




                                     Page 2 of 3                             M95-44
                              CLOSEOUT FOR M95120044
entry into the database, and cite the contributing authors. The two figures in the subject's
paper simply cited the original authors of the figures.

OIG learned that the subject's co-author had published a correction in the journal that
published the co-authored paper and that the subject had formally resigned from the database
project. The complainant told OIG that the process of resolving his dispute with the subject
had answered some important questions about authorship and citation for information
available on the world wide web.

OIG concluded that the subject should have more fully acknowledged the complainant's role
in developing the database in his paper, but that this failure and the incomplete citations for
the two figures were not sufficiently serious to be pursued as possible misconduct in science.

This inquiry is closed and no further action will be taken in this case.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 3 of 3                            M95-44
